                                                                             EMPLOYMENT AND TRAINING

U.S. Department of Labor

                                                   ADMINISTRATION

                                                                             OFFICE OF THE ASSISTANT
                                                                             SECRETARY FOR
                                                                             ADMINISTRATION AND
                             Office of Inspector General—Office of Audit


                                                                             MANAGEMENT




                                                                             JOB CORPS NATIONAL CONTRACTING NEEDS
                                                                             IMPROVEMENT TO ENSURE BEST VALUE




                                                                                            Date Issued:   September 27, 2013
                                                                                         Report Number:      26-13-004-03-370
U.S. Department of Labor                                   September 2013
Office of Inspector General
Office of Audit                                            JOB CORPS NATIONAL CONTRACTING
                                                           NEEDS IMPROVEMENT TO ENSURE BEST
                                                           VALUE
BRIEFLY…
Highlights of Report Number: 26-13-004-03-370, issued      WHAT OIG FOUND
to the Assistant Secretary for Employment and Training     ETA and OASAM did not comply with the FAR when
and to the Assistant Secretary for Administration and      awarding 13 of the 16 contracts we reviewed. In
Management.                                                addition, claimed costs for Job Corps national contracts
                                                           were not always reviewed and supported as required.
WHY READ THE REPORT                                        Those 13 Job Corps national contracts were awarded
During 2006, the Job Corps program and its acquisition     without adequate sole source justifications or were
authority was transferred from the Employment and          missing key contracting documentation.
Training Administration (ETA) to the Office of the
Assistant Secretary for Administration and Management      ETA and OASAM improperly awarded 10 sole source
(OASAM), but was subsequently transferred back to          contracts, totaling $353 million, and cited “one
ETA in 2010. These transfers resulted in Job Corps’        responsible source” as justification for the award,
national contracts having been awarded in some cases       despite procurement records indicating the availability
by ETA and in other cases by OASAM.                        of more sources that could potentially have performed
                                                           the services. In addition, ETA and OASAM could not
Twenty-four national contracts totaling more than          demonstrate they complied with the FAR when
$506 million were awarded for Job Corps during the         competitively awarding 3 Job Corps’ national contracts,
5-year period ending December 31, 2012. We found           totaling $38 million, because key award documentation,
that adequate sole source justification was not provided   including evidence that bids were evaluated and costs
for contracts totaling $353 million, key contracting       considered, was missing from the contract files.
documentation was not maintained for contracts totaling
$38 million, and claimed costs were not validated as       We also found that Job Corps paid $335 million for
required for contracts totaling $335 million.              8 sole source Job Corps national training contracts
                                                           without requesting invoices or reviewing adequate
                                                           supporting documentation. However, for the 8 other
WHY OIG CONDUCTED THE AUDIT                                contracts we audited, claimed costs were generally
We conducted this audit to address the following           reviewed and supported.
question:
                                                           WHAT OIG RECOMMENDED
    Were Job Corps’ national contracts awarded             The OIG recommended that ETA provide training and
    and costs claimed in accordance with Federal           oversight to ensure compliance with the FAR and DOL
    Acquisition Regulation (FAR) requirements?             requirements, develop standard operating procedures
                                                           for requesting documentation before making payments,
Our scope covered 16 of 24 Job Corps national              and adhere to internal control standards of the Federal
contracts that were awarded during the period              Government.
January 1, 2008, through December 31, 2012. We also
reviewed costs claimed for those 16 Job Corps national     In response to our report, ETA management agreed
contracts.                                                 that contractors had not provided proper evidence that
                                                           costs claimed and paid were valid. However, ETA and
READ THE FULL REPORT                                       OASAM disagreed that sole source justifications were
To view the report, including the scope, methodology,      inadequate and key documentation was missing from
and full agency response, go to:                           the contract files. ETA and OASAM did not provide
                                                           additional information that changed our conclusions.
http://www.oig.dol.gov/public/reports/oa/2013/26-13-       Despite the disagreements, ETA management
004-03-370.pdf.                                            accepted all four of our recommendations.
PAGE INTENTIONALLY LEFT BLANK


                                                   U. S. Department of Labor – Office of Inspector General



Table of Contents



Assistant Inspector General’s Report ......................................................................... 1



Objective — Were Job Corps’ national contracts awarded and costs claimed in


accordance with Federal Acquisition Regulation (FAR) requirements? .................. 4


         Job Corps’ Contracting Controls Need Strengthening as ETA and OASAM
            Did Not Consistently Comply with FAR Procurement Requirements

         Finding 1 —Thirteen Job Corps National Contracts Awarded Without


                   Adequate Sole Source Justifications or Key Contracting


                   Documentation. .................................................................................... 4



         Finding 2 — Claimed Costs for Job Corps National Contracts Were Not


                   Always Reviewed and Supported. ........................................................ 9



Recommendations ...................................................................................................... 12



Exhibits
         Exhibit 1 Thirteen of 16 Job Corps’ National Contracts Were Improperly


                    Awarded ............................................................................................. 15


         Exhibit 2 Three of 16 Job Corps’ National Contracts Were Properly


                    Awarded ............................................................................................. 17



Appendices
         Appendix A Background ..................................................................................... 21


         Appendix B Objective, Scope, Methodology, and Criteria .................................. 23


         Appendix C Acronyms and Abbreviations .......................................................... 27


         Appendix D Combined Response from ETA and OASAM to the Draft Report ... 29


         Appendix E Acknowledgements ......................................................................... 37






                                                        Job Corps National Contracting Needs Improvement
                                                                             Report No. 26-13-004-03-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






            Job Corps National Contracting Needs Improvement
                                 Report No. 26-13-004-03-370
                                     U. S. Department of Labor – Office of Inspector General


U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210




September 27, 2013

                        Assistant Inspector General’s Report


ERIC SELEZNOW
Acting Assistant Secretary
 for Employment and Training
200 Constitution Avenue, NW
Washington, D.C. 20210

T. MICHAEL KERR
Assistant Secretary
 for Administration and Management
200 Constitution Avenue, NW
Washington, D.C. 20210

The Office of Inspector General (OIG) conducted a performance audit of the Office of
Job Corps (Job Corps) national contracts. Job Corps is an office within the Employment
and Training Administration (ETA). ETA’s Office of Contract Management is responsible
for executing Job Corps’ operational acquisition authority and was authorized to perform
the contracting for Job Corps National and Regional Offices. During 2006, Job Corps
operational acquisition authority was transferred from ETA to the Office of the Assistant
Secretary for Administration and Management (OASAM), but subsequently transferred
back to ETA in 2010. The transfers of Job Corps operational acquisition authority
resulted in Job Corps’ national contracts having been awarded in some cases by ETA
and in other cases by OASAM.

Our audit objective was to answer the following question:

      Were Job Corps’ national contracts awarded and costs claimed in
      accordance with Federal Acquisition Regulation (FAR) requirements?

To accomplish our objective, we reviewed ETA’s standard operating procedures and
FAR contracting requirements; interviewed ETA, OASAM, and Job Corps personnel and
obtained walkthroughs of their procurement and payment processes; assessed ETA
and OASAM internal controls over procurement; and reviewed contract awards and
their associated payment and reimbursement documents for compliance with the FAR.
We tested the award of 16 national contracts representing $466 million, or 92 percent of
the total value of Job Corps’ national contracts. The 16 Job Corps national contracts we
tested were awarded and managed by ETA and OASAM for the 5 year contract award
period from January 1, 2008, to December 31, 2012. We separately audited claimed
costs for the 16 national contracts by testing all claimed costs for 8 Job Corps national

                                        Job Corps National Contracting Needs Improvement
                                           1                 Report No. 26-13-004-03-370
                                                U. S. Department of Labor – Office of Inspector General


training contracts totaling $335 million and by testing a portion of the $131 million in
claimed costs associated with the other 8 national contracts. For the other 8 national
contracts, we performed a statistical sample of approximately $25 million in claimed
costs for the period October 1, 2010, through September 30, 2011.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Background information on this audit is detailed in Appendix A, and our
objective, scope, methodology, and criteria are detailed in Appendix B.

RESULTS IN BRIEF

ETA and OASAM did not comply with the FAR when awarding 13 of the 16 contracts we
reviewed. In addition, claimed costs for Job Corps national contracts were not always
reviewed and supported as required. 1 Job Corps may achieve future cost savings if ETA
and OASAM improve their internal controls to ensure contracts are awarded
competitively and claimed costs are verified and paid in accordance with the FAR.
These cost savings could be substantial as the total value of the 16 contracts we
audited totaled $466 million.

Thirteen Job Corps National Contracts Awarded Without Adequate Sole Source
Justifications or Key Contracting Documentation

ETA and OASAM improperly awarded 10 sole source contracts, totaling $353 million.
We found that these contracts cited “one responsible source” as justification for the
award, despite procurement records indicating the availability of more sources that
could potentially have performed the services, and for that reason, we determined the
justification was inadequate. For about 40 years, these contracts for nationwide
vocational training services were awarded to trade unions without competition. We
determined that these awards were not justified because the contracted services were
not unique as defined in the FAR. We concluded that the 8 contracts totaling $355
million should have been competitively awarded. We also found that in 1995 and in
1998, GAO concluded the sole source justification for these contracts, the same
justification used in the contracts we audited here, was inadequate. GAO criticized the
justification and cited the unions’ network of support affiliates and major industry players
at the local, regional, and national levels to be insufficient reasons for the sole source
awards since the services provided by those contracts were not unique.




1
 Of the 16 Job Corps’ national contracts included in our review, 11 contracts were sole source awarded (3 by ETA
and 8 by OASAM) and 5 contracts were competitively awarded (1 by ETA and 4 by OASAM).



                                                    Job Corps National Contracting Needs Improvement
                                                       2                 Report No. 26-13-004-03-370
                                                  U. S. Department of Labor – Office of Inspector General


We also found for 3 contracts totaling $38 million that ETA and OASAM could not
provide evidence that bids were evaluated and costs considered, as required by the
FAR. In addition, 5 sole source contract files were missing other key documentation,
such as contract modifications, procurement action requests, and procurement
approvals.

Claimed Costs Were Not Consistently Supported

We reviewed 16 Job Corps national contracts to determine if claimed costs were
adequately supported by the contractor and reviewed by Job Corps. We found that Job
Corps paid $335 million for the 8 training contracts without requesting invoices or
reviewing adequate supporting documentation from the contractors. ETA had a limited
review process in place for travel costs, but had no other process to determine if the
majority of costs were supported or allowable under the FAR.

However, for the 8 other national contracts, we found that claimed costs were generally
reviewed and supported. We statistically sampled approximately $12.7 million of the
$25 million paid for the other 8 national contracts during FY 2011 and estimated that at
least $24 million (96 percent) was adequately supported. However, we questioned
$351,207 in claimed costs for which the contractors did not provide supporting
documentation required by ETA and the FAR. Based on our statistical sample, we are
95 percent confident that questioned costs could be as high as $1.1 million. 2

These conditions occurred because ETA and OASAM had not established a control
environment to ensure contracts were awarded in accordance with applicable laws,
policies, and procedures and claimed costs were adequately validated.

We recommended ETA provide training and oversight to ensure compliance with the
FAR and DOL requirements, develop standard operating procedures for requesting
documentation before making payments, and adhere to internal control standards of the
Federal Government. ETA management accepted the recommendations to further
improve DOL’s procurement practices.

In response to our report, ETA and OASAM maintain their position that the sole source
awards were justified. However, they provide no new information or evidence to support
this position. In regards to our recommendations, they indicated many actions are
completed or underway. Nothing in their responses changed the conclusions in our
report.




2
 For the 8 other Job Corps national contracts totaling $25 million in claimed costs paid in FY 2011, we statistically
selected 39 of 80 invoices totaling approximately $12.7 million. Of the 39 invoices sampled, we identified 17 totaling
$351,207 that did not have support documentation to substantiate the costs claimed. The sample projects show a
lower limit of $445,436 and a midpoint estimate of $792,522.



                                                      Job Corps National Contracting Needs Improvement
                                                         3                 Report No. 26-13-004-03-370
                                                U. S. Department of Labor – Office of Inspector General


RESULTS AND FINDINGS

Objective — Were Job Corps’ national contracts awarded and costs claimed in
            accordance with Federal Acquisition Regulation (FAR)
            requirements?

        Job Corps’ Contracting Controls Need Strengthening as ETA and OASAM Did
        Not Consistently Comply with FAR Procurement Requirements

Finding 1 — Thirteen Job Corps National Contracts Awarded Without Adequate
Sole Source Justifications or Key Contracting Documentation.

ETA and OASAM did not comply with FAR requirements when awarding 13 of the 16
Job Corps’ national contracts we reviewed. 3 Of the 13 contracts with procurement
deficiencies, ETA and OASAM improperly awarded 10 sole source contracts, totaling
$353 million, without fair and open competition, proper evaluation of competing
contractors, or required contract documentation to support that the contracts were
properly awarded. In addition, 5 of these sole source contract files were missing
documentation, such as contract modifications, procurement action requests, and
procurement approvals. Furthermore, OASAM did not comply with the FAR when
competitively awarding 3 Job Corps’ national contracts, totaling $38 million, because
key award documentation, to include evidence that bids were evaluated and costs
considered, was missing from the contract files.

These conditions occurred because ETA and OASAM had not established a control
environment, including training and oversight, to ensure proper supporting
documentation was maintained or that awards and the numerous contract modifications
were appropriate, accurate, and in accordance with applicable laws, policies, and
procedures. Consequently, the assurance of best value to the government was lost. Job
Corps may achieve future cost savings if ETA and OASAM improve their internal
controls to ensure contracts are awarded competitively in accordance with the FAR.
These cost savings could be substantial as the total value of the 13 contracts we tested
and found non-compliant totaled $391 million (see Table 1 on the next page for a
summary and Exhibit 1 for a listing of the 13 contracts improperly awarded by ETA and
OASAM).




3
 Of the 16 Job Corps’ national contracts included in our review, 11 contracts were sole source awarded (3 by ETA
and 8 by OASAM) and 5 contracts were competitively awarded (1 by ETA and 4 by OASAM).



                                                    Job Corps National Contracting Needs Improvement
                                                       4                 Report No. 26-13-004-03-370
                                       U. S. Department of Labor – Office of Inspector General


The below table shows the contract procurement deficiencies we identified reflecting
FAR non-compliance by the number of contracts, contract awards (sole source or
competitive), and contract dollars.

Table 1: ETA and OASAM non-compliance by Contracts and Dollars
            FAR             Contracts with Non-        Contract Awards (Sole
    Non-compliance          Compliance Issues         Source or Competitive)
 Inadequate Sole Source    10 of 16 total contracts 10 of 11 sole source contracts
 Justification and Missing         (63%)                        (91%)
     Documentation*            $353,336,831                 $353,336,831
   Competitive Awards      3 of 16 total contracts   3 of 5 competitive contracts
   Missing Key Contract            (19%)                        (60%)
      Documentation             $37,786,855                  $37,786,855
                                       13 of 16 (81%)               13 of 16 (81%)
          Totals
                                        $391,123,686                $391,123,686
*The missing documentation applies to 5 of the 11 sole source contracts. See Exhibit 1 and
Exhibit 2 for details of our findings for each of the 16 contracts.

For 13 Job Corps national contracts, totaling $391 million, we determined that
10 contracts, totaling $353 million, were improperly awarded as sole source contracts in
that there was inadequate sole source justification and missing documentation; and
3 contracts, totaling $38 million, were improperly awarded competitively as the contract
files were missing key contract documentation to support the awards.

Inadequate Sole Source Justification and Missing Documentation

We found that 10 contracts were improperly awarded without fair and open competition,
proper evaluation of competing contractors, or required contract documentation. These
contracts cited “one responsible source” as justification for the award despite
procurement records indicating the availability of more sources that could potentially
have performed the services. As such, OASAM and ETA could not demonstrate that
they awarded the 10 sole source contracts at best value to the government. The 10
contracts included 8 national training contracts totaling $335 million and 2 other national
contracts (PB Dewberry and IMPAQ International) totaling $18 million, for a total of
$353 million.

Eight sole source contracts, totaling $335 million, were awarded by OASAM to trade
unions to provide vocational training to Job Corps students. These national training
contracts were for materials, services, and all necessary personnel to operate career
technical training programs. The justification for making the sole source awards cited
that the unions provided “unique services or unique capabilities” and that the unions
have a “network of support affiliates associated with labor unions and major industry
players at the local, regional, and national levels.” However, the sole source justification
did not include any evidence, support, or quantifiable data that would indicate the
national training contractors were the only possible sources that had such services or
capabilities. We reviewed the research and market analysis documented in the contract


                                          Job Corps National Contracting Needs Improvement
                                             5                 Report No. 26-13-004-03-370
                                            U. S. Department of Labor – Office of Inspector General


files to support the sole source awards and we determined that the research and market
analysis was superficial and inadequately supported. More importantly, the Department
could not demonstrate that the “unique” services and capabilities it cited were
necessary to provide the services which Job Corps required. These 8 national training
contracts have been issued as sole source awards for over 40 years without adequate
documentation to show that competitive awards could not have been used in lieu of the
sole source awards.

FAR 6.302-1(a)(2) states:

        When the supplies or services required by the agency are available from
        only one responsible source … and no other types of supplies or services
        will satisfy agency requirements, full and open competition need not be
        provided for.

In addition, FAR 10.002 (b)(1) states:

        The extent of market research will vary, depending on such factors as
        urgency, estimated dollar value, complexity, and past experience.

While the FAR does not specifically reference the amount or type of documentation
required for the market research, we believe that the market research conducted by Job
Corps was superficial. Specifically, Job Corps records indicate 13 contractors having
the potential to provide vocational training were identified through research. However, 5
were eliminated from consideration because they did not respond to voicemail. Another
7 contractors were eliminated because they were determined incapable or did not
submit adequate documentation. We question the thoroughness of these 7
determinations because Job Corps did not document the methodology used to evaluate
capability or the reasons contactors were determined incapable. Considering that the
estimated dollar value of the contracts totaled $335 million, we believe more extensive
research, analysis, documentation, and contractor follow up was warranted. One
contractor informed Job Corps they were not interested and we agreed that this
contractor was properly eliminated from consideration.

Our conclusions were consistent with two prior audit reports in which the Government
Accountability Office (GAO) specifically criticized the justification DOL used for the 8
sole source contract awards as insufficient to the circumstances for awarding these
training contracts. GAO reported in 1998 that the fundamental justification cited for the
sole source status for the national training contracts was their network of support
affiliates associated with labor unions and major industry players at the local, regional,
and national levels. 4 In its 1998 report, GAO concluded that DOL had used the same
justification with unions in order to award these sole source contracts for over 30 years
and essentially listed the qualities expected in a contractor rather than establishing that

4
 GAO Report GAO/HEHS-99-15, “Job Corps Links with Labor Market Improved but Vocational Training Performance
Overstated,” dated November 1998



                                                Job Corps National Contracting Needs Improvement
                                                   6                 Report No. 26-13-004-03-370
                                        U. S. Department of Labor – Office of Inspector General


the services contracted for can be provided by only one source. GAO further concluded
that DOL’s justification for sole source procurement does not explain or demonstrate the
basis for the Department’s determination of need. Three years earlier in 1995, GAO
also recommended that DOL reevaluate its sole source justification. GAO concluded the
sole source justification for the contracts, the same justification used in the contracts we
audited here, was inadequate.

DOL disagreed with the two GAO reports and stated its use of noncompetitive
procedures was justified as Job Corps training programs could not be served as well
through locally or regionally competed procurements. DOL also cited the continued
strong performance of its sole source training contracts as well as the lack of response
to its attempts to solicit other qualified providers as proper justification for its decision to
use noncompetitive procedures. However, Job Corps offered nothing that would support
these assertions. As such, we have the same concerns as those noted in GAO’s
reports. We believe that DOL had not adequately determined the availability of other
potential training providers. Accordingly, we conclude that DOL needs to increase its
due diligence in soliciting training providers to support future competitive awards of Job
Corps national training contracts rather than continuing in its past use of noncompetitive
procedures for training services that do not represent unique services as defined by the
FAR.

In the combined response to our report, ETA and OASAM stated that no companies
responded to the sources sought notice posted in Federal Business Opportunities and
had any companies responded to the notice, then the OASAM contracting officer would
have assessed their capability to provide the needed services. We believe the lack of
response to the sources sought notice was indicative of the restrictive qualifications
specified by OASAM as noted in their response to our draft report. For example, one of
the qualifications required was that the proposed contractors have direct access to a
large nation-wide membership related to the trades and national and local
apprenticeship programs, which ETA and OASAM stated was necessary for student
success while in the program and after matriculation from the program. This
requirement eliminated potential competition because regional contractors that may
have had superior apprenticeship and/or job placement records would not have been
considered.

ETA and OASAM also stated that high dollar contracts with unique circumstances such
as these 8 sole source national training contracts required review by DOL’s
Procurement Review Board (PRB) to ensure best value was obtained and the interests
of the government were protected. ETA and OASAM stated that Job Corps’ market
research was included in its submission to the PRB along with the unique qualifications
of the respective incumbent national training contractors (e.g., network of support
affiliates associated with labor unions and major industry players). The PRB reviewed
all 8 proposed contracts along with supporting documentation and recommended
approval to DOL’s Chief Acquisition Officer (CAO). All 8 were approved by the CAO.
However, we concluded that neither the PRB nor the CAO’s actions ensured OASAM’s
compliance with the FAR requirements for competition or adequate sole source
justification. As noted, we believe that the market research on which the PRB and CAO
partially based their decisions was superficial and limited by the restrictive qualifications

                                           Job Corps National Contracting Needs Improvement
                                              7                 Report No. 26-13-004-03-370
                                      U. S. Department of Labor – Office of Inspector General


that had been set. It did not adequately support ETA and OASAM’s assertion that the
qualifications of the incumbent national training contractors warranted sole source
procurement.

For the other 2 sole source national contracts (PB Dewberry and IMPAQ International),
totaling $18 million, ETA cited “only one responsible source” despite many other
contractors with experience in general construction and management services that
could have been considered and competed for those contract awards. The contract
awarded to PB Dewberry, totaling $15 million, was for architectural, engineering,
design, and construction projects to help ensure complete implementation of the annual
construction, renovation, and acquisition budget for the Job Corps facilities program.
The other contract to IMPAQ International, totaling $3 million, was for management
services such as collecting survey data, processing and analyzing data collected,
preparing specialized reports for dissemination, web site hosting activities, and technical
assistance and training to the Job Corps National Office, regional offices and centers in
the areas of continuous improvement, best practices, and other programmatic areas.
Because these 2 contracts did not represent unique services as defined in the FAR,
these contracts should not have been sole source awarded, and as such, the
competitive procedures should have been utilized.

ETA management stated that the PB Dewberry sole source contract award resulted
from numerous protests against ETA’s awarded contract and that those protests caused
the delay in making a competitive contract award. However, ETA has not provided
documentation to support this assertion and accordingly, our conclusion that the sole
source award to PB Dewberry was not adequately justified remains unchanged.

In regards to the contract with IMPAQ International, ETA stated that due to procurement
delays, the sole source contract was made to ensure continuity of services while ETA
competed and awarded a new contract. ETA also stated that it successfully competed
the services and awarded a new follow-on contract to IMPAQ International on
June 28, 2012.

Job Corps’ National Contracts Were Missing Documentation

FAR 4.802 requires that contracting files have documentation to support the acquisition
and the award, the assignment of contract administration (including payment
responsibilities), and any subsequent actions taken by the contracting office and that
such documentation be retained in any medium (paper, electronic, microfilm, etc.) or
any combination of media, as long as the requirements of this subpart are satisfied.

Neither OASAM nor ETA could produce documentary evidence that the contract files
contained all the required documentation. OASAM told us that all of the required
documentation was in the contract files when they were transferred to ETA in
October 2010.

We found that files for five sole source contracts were missing documentation, including
contract modifications, procurement action requests, and procurement approvals. Three
of the Job Corps’ national training contracts and two of the other Job Corps national

                                         Job Corps National Contracting Needs Improvement
                                            8                 Report No. 26-13-004-03-370
                                      U. S. Department of Labor – Office of Inspector General


contracts were missing documentation related to the procurement process. The missing
procurement process documentation included: justification for the sole source award, a
conflict of interest certification that personal or business relationships did not exist, a
Procurement Review Board (PRB) memo, evidence the Excluded Parties List System
(EPLS) was checked prior to contract award, certified cost or pricing data, and an
explanation of why the contract type selected was used to meet the agency’s needs.

Competitively Awarded Job Corps National Contracts Were Missing Key Documentation

ETA and OASAM together competitively awarded 5 national contracts. OASAM
improperly awarded 3 of its competitively awarded Job Corps’ national contracts,
totaling $38 million. We could not determine that these procurement actions complied
with the FAR because the contract files were missing evidence that competitive award
procedures were executed, and competitive award documentation (to include evidence
that bids were evaluated and costs considered) was also missing from the contract files.
The 3 contracts had missing documentation including solicitation and source selection
documents, Blanket Purchase Agreement (BPA) competitive procedures and
documentation, EPLS documents, and support that the bid was the lowest price or a list
of all the lower bids and the reason for rejection.

In response to our report, ETA and OASAM were adamant that the missing contract
documentation cited above was available and stored in the contract files. ETA and
OASAM did not provide us with any new information that changed our conclusions.

Stronger Controls Needed Over Procurement Actions

These conditions occurred because ETA and OASAM had not established a control
environment, including procedures, training, and oversight to ensure proper supporting
documentation was maintained or that awards were appropriate, accurate, and in
accordance with applicable laws, policies, and procedures. Consequently, the
assurance of best value to the government was lost. Job Corps may achieve future cost
savings if ETA and OASAM improve their internal controls to ensure contracts are
awarded competitively in accordance with the FAR. These cost savings could be
substantial as the total value of the 13 contracts we tested and found non-compliant
totaled $391 million.

Finding 2 — Claimed Costs for Job Corps National Contracts Were Not Always
              Reviewed and Supported.

Claimed costs for the 8 sole source national training contracts, totaling $335 million,
were not adequately reviewed to determine if the costs were allowable under the FAR.
Job Corps did not require the national training contractors to submit invoices and other
documentation supporting the claimed costs. The claimed costs for the 8 other Job
Corps national contracts were generally supported. We statistically sampled
approximately $12.7 million of the $25 million paid for the 8 contracts during FY 2011
and estimated that at least $24 million (96 percent) paid was adequately supported.


                                         Job Corps National Contracting Needs Improvement
                                            9                 Report No. 26-13-004-03-370
                                     U. S. Department of Labor – Office of Inspector General


However, we questioned $351,207 in claimed costs that did not have supporting
documentation required by ETA and the FAR.

This occurred because ETA did not have in place internal controls to ensure that
invoices and other supporting documentation were consistently obtained and reviewed
before payment. Consequently, ETA had no assurance that the costs submitted by the
contractors were fair or accurate.

Invoice Documentation to Support Costs Claimed on Job Corps’ National Training
Contracts Was Not Requested Before Payments Were Made

Job Corps had no review process in place to verify the claimed costs for 8 Job Corps’
national training contracts, totaling $335 million. Contractors only submitted monthly
spreadsheets for their claimed costs. Job Corps did not have standard operating
procedures in place or internal controls to require the national training contractors to
account for costs or to provide adequate records to demonstrate that costs claimed had
been incurred as required by FAR 31.201-2(d), which states:

      A contractor is responsible for accounting for costs appropriately and for
      maintaining records, including supporting documentation, adequate to
      demonstrate that costs claimed have been incurred, are allocable to the
      contract, and comply with applicable cost principles in this sub-part and
      agency supplements. The contracting officer may disallow all or part of a
      claimed cost that is inadequately supported.

In addition, Job Corps did not request invoice documentation as required by a contract
clause in the Job Corps national training contracts and except for travel related
expenses, no verifications were performed in lieu of the invoice documentation.
Furthermore, no documentation to support the claimed costs was requested nor were
any of the claimed costs verified before the national training contractors withdrew
reimbursable funds using the Department of Health and Human Services’ Payment
Management System. FAR 52.216-7(a)(1) states:

      The Government will make payments to the Contractor when requested as
      work progresses, but (except for small business concerns) not more often
      than once every 2 weeks, in amounts determined to be allowable by the
      Contracting Officer in accordance with the FAR subpart 31.2 in effect on
      the date of the contract and the terms of the contract. The Contractor may
      submit to an authorized representative of the contracting officer, in such
      form and reasonable detail as the representative may require, an invoice
      or voucher supported by a statement of the claimed allowable cost for
      performing this contract.

Each of the Job Corps national training contracts contained the following clause that
required invoices to be submitted to DOL:



                                        Job Corps National Contracting Needs Improvement
                                           10                Report No. 26-13-004-03-370
                                                   U. S. Department of Labor – Office of Inspector General


            The contractor shall submit invoices for interim payments in accordance
            with paragraph (a) of FAR 52.216-7, Allowable Cost and Payment. If the
            invoice does not comply with contract requirements, it will be returned
            within 7 days after the date the designated billing office received the
            invoice.

Despite the fact that FAR 52.216-7 was an enforceable clause in each of the national
training contracts, Job Corps did not require contractors to submit any invoices on any
kind of schedule, monthly or otherwise.

Furthermore, we found no evidence of a reconciliation process or periodic review
process to demonstrate how claimed costs were verified for the Job Corps national
training contracts. Agency officials advised us that there were no standard operating
procedures regarding the payment process for claimed costs associated with trade
union contracts.

In response to our report, ETA is taking steps to require the national training contractors
to submit invoices and training has been provided to the CORs to require supporting
documentation for costs incurred.

Claimed Costs for the Eight Other Job Corps National Contracts were not Consistently
Validated

Although the claimed costs for the 8 other national contracts, including base and option
years, totaling $131 million were generally supported, we identified $351,207 that were
not supported. We statistically sampled approximately $12.7 million of the $25 million
paid for the 8 contracts during FY 2011. We reviewed the invoices and supporting
documentation submitted by the contractors to determine whether the claimed costs
were supported as required by the FAR. Based on our statistical sampling, we
estimated that at least $24 million (96 percent) was adequately supported.

We did, however, question $351,207 in claimed costs because we found no
documentation to support those costs. Seventeen of the 39 invoices we reviewed had
support deficiencies that resulted in us questioning part of the invoiced amount. Missing
or inadequate documentation included support for expenses such as salaries, travel,
and labor hours and rates paid to sub-contractors. FAR 31.201-2 requires adequate
supporting documentation to demonstrate the costs incurred are allocable to the specific
contract, and Title 5, Code of Federal Regulations, Part 1315.9 states that agencies are
to ensure payment documentation is established to support payment of invoices.

Projecting to the $25 million paid during FY 2011, we are 95 percent confident that
questioned costs could be as high as $1.1 million. 5 Developing and implementing
effective invoice review procedures could result in funds put to better use of that
amount.
5
    The sample projects a lower limit of $445,436 and a midpoint estimate of $792,522.



                                                       Job Corps National Contracting Needs Improvement
                                                          11                Report No. 26-13-004-03-370
                                        U. S. Department of Labor – Office of Inspector General



This occurred because ETA had not established controls to ensure all claimed costs
were valid. Specifically, written standard operating procedures for requesting, reviewing,
and approving invoices had not been established, and we found no evidence of
supervisory review.

In response to our report, ETA agreed that contractors have not always provided proper
evidence that expenses invoiced and paid were actually incurred, and accordingly, ETA
will have the COR review supporting documentation for those costs questioned in this
report and recover costs as appropriate. In addition, ETA management accepted the
four recommendations we made below to further improve DOL’s procurement practices.

RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training:

1. Develop and implement procedures and provide training as needed to ensure
   contracting officers, contracting specialists, and contracting officers’ representatives
   are up-to-date on applicable FAR and DOL requirements before awarding and
   managing sole source or competitive contracts.

2. Review future Job Corps’ National contracts for FAR and DOL compliance prior to
   approving any procurement actions.

3. Develop standard operating procedures using the Standards for Internal Control in
   the Federal Government to develop and implement the missing procedures for
   requesting and reviewing invoices from Job Corps’ national training contractors.

4. Recover questioned costs as appropriate on the amount of costs claimed that lacked
   supporting documentation for the other eight Job Corps national contracts.

We appreciate the cooperation and courtesies that ETA and OASAM personnel
extended to the Office of Inspector General personnel during this audit. OIG personnel
who made major contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General for Audit




                                           Job Corps National Contracting Needs Improvement
                                              12                Report No. 26-13-004-03-370
             U. S. Department of Labor – Office of Inspector General




Exhibits






                Job Corps National Contracting Needs Improvement
                   13                Report No. 26-13-004-03-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






            Job Corps National Contracting Needs Improvement
               14                Report No. 26-13-004-03-370
                                                   U. S. Department of Labor – Office of Inspector General


                                                                                                           Exhibit 1

Thirteen of 16 Job Corps’ National Contracts Were Improperly Awarded

                              Amount of                            Awarded
 Vendor Name                  Contract*      Service Provided        By      FAR and DOL Non-Compliance Issues

 McNeely Pigott & Fox          $18,495,000    Media Outreach        OASAM    •   Inadequate BPA competitive procedures
 Public Relations,                              Campaign                     •   Missing BPA documentation
 LLC (Media
 McNeely Pigott & Fox           11,477,726   Communications         OASAM    •   Missing Competitive Range Documentation
 Public                                         Support                          and Comparative Assessment
 Relations, LLC                                                              •   Missing EPLS Documentation
                                                                             •   No Support for Bid Cost Selected
 The Ashlin Management           7,814,129    Career Technical      OASAM    •   Missing Competitive Range Documentation
 Group, Inc.                                 Training Strategies                 and Comparative Assessment
                                                                             •   Missing solicitation documents
                                                                             •   Missing EPLS Documentation
 United Brotherhood of          63,464,972   Career Technical       OASAM    •   Inadequate Sole Source Justification
 Carpenters                                      Training                    •   Missing Competitive Award Documentation
                                                                                 for Inadequate Sole Source Contracts
 International Masonry          31,089,854   Career Technical       OASAM    •   Inadequate Sole Source Justification
 Institute                                       Training                    •   Missing Competitive Award Documentation
                                                                                 for Inadequate Sole Source Contracts
                                                                             •   Missing Contract Modification
 International Union of         24,270,778   Career Technical       OASAM    •   Inadequate Sole Source Justification
 Operating Engineers                             Training                    •   Missing Competitive Award Documentation
                                                                                 for Inadequate Sole Source Contracts
                                                                             •   Missing Contract Modification
 International Union of         33,702,997   Career Technical       OASAM    •   Inadequate Sole Source Justification
 Painters and Allied Trades                      Training                    •   Missing Competitive Award Documentation
                                                                                 for Inadequate Sole Source Contracts
 National Plastering            38,818,590   Career Technical       OASAM    •   Inadequate Sole Source Justification
 Industry's Joint                                Training                    •   Missing Competitive Award Documentation
 Apprenticeship Trust Fund                                                       for Inadequate Sole Source Contracts
                                                                             •   Missing Contract Modification
 United Auto Workers            21,948,363   Career Technical       OASAM    •   Inadequate Sole Source Justification
 Labor, Employment and                           Training                    •   Missing Competitive Award Documentation
 Training                                                                        for Inadequate Sole Source Contracts
 C
 Transportation                 33,162,594   Career Technical       OASAM    •   Inadequate Sole Source Justification
 Communications                                  Training                    •   Missing Competitive Award Documentation
 International Union                                                             for Inadequate Sole Source Contracts
 Home Builders Institute        88,362,469   Career Technical       OASAM    •   Inadequate Sole Source Justification
                                                 Training                    •   Missing Competitive Award Documentation
                                                                                 for Inadequate Sole Source Contracts
 PB Dewberry                    15,116,214      Planning,            ETA     •   Inadequate Sole Source Justification
                                               Management                    •   Missing EPLS Documentation
                                                   and                       •   Missing Conflict of Interest Statement
                                               Oversight for                 •   No Contract Type Explanation
                                                Facilities                   •   Missing Procurement Review Board Review
                                                                             •   Missing Certified Cost or Pricing Data
 Impaq International, LLC        3,400,000   Data Processing         ETA     •   Inadequate Sole Source Justification
                                                 Support                     •   No Contract Type Explanation
 Total                        $391,123,686



*The “Amount of Contract” column shows approximately $391 million (for 13 contracts)
out of $466 million (for 16 contracts) in total Job Corps national contract dollars that we
reviewed. The $466 million for 16 contracts represents 92 percent of the total value of
all Job Corps national contracts awarded during the five year contract award period
from January 1, 2008, to December 31, 2012.

                                                        Job Corps National Contracting Needs Improvement
                                                           15                Report No. 26-13-004-03-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






            Job Corps National Contracting Needs Improvement
               16                Report No. 26-13-004-03-370
                                          U. S. Department of Labor – Office of Inspector General


                                                                                      Exhibit 2

Three of 16 Job Corps’ National Contracts Were Properly Awarded


                            Amount of
Vendor Name                 Contract**               Service Provided           Awarded By
Altech Services, Inc.       $59,664,482         Information Technology and        OASAM
                                                Telecommunication Services
University of Kansas        12,481,595           Staff development Support          ETA

Inspection Experts, Inc.     2,747,412             Environmental Safety and         ETA
                                                   Occupational Health
Total                       $74,893,489



**The “Amount of Contract” column shows approximately $75 million (for 3 contracts)
that had no award related issues out of $466 million (for 16 contracts) in total Job Corps
national contract dollars that we reviewed. The $466 million for 16 contracts represents
92 percent of the total value of all Job Corps national contracts awarded during the five
year contract award period from January 1, 2008, to December 31, 2012.




                                             Job Corps National Contracting Needs Improvement
                                                17                Report No. 26-13-004-03-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






            Job Corps National Contracting Needs Improvement
               18                Report No. 26-13-004-03-370
               U. S. Department of Labor – Office of Inspector General




Appendices






                  Job Corps National Contracting Needs Improvement
                     19                Report No. 26-13-004-03-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






            Job Corps National Contracting Needs Improvement
               20                Report No. 26-13-004-03-370
                                      U. S. Department of Labor – Office of Inspector General


                                                                               Appendix A
Background

Job Corps National Office (the National Office) establishes policy and requirements and
oversees major Job Corps program initiatives. In addition, the National Office
administers several national support contracts to include: national health and wellness
consultants, the Job Corps National Call Center, Job Corps nationwide outreach efforts,
and nationwide curriculum development. Job Corps’ Regional Offices administer
contracts and perform oversight activities, which include oversight and ongoing
monitoring of Outreach and Admissions and Career Transition Services contracts.

In DOL, the management and administration of the Job Corps program was moved
twice within the last seven years. During FY 2006, Job Corps was transferred from the
Employment and Training Administration (ETA) and was made an autonomous office
under the DOL’s Office of the Secretary (OSEC). While under the OSEC, budgeted
funds for Job Corps were appropriated directly to the Office of Job Corps and
contracting support for the National Office and Regional Offices was provided by the
Office of the Assistant Secretary for Administration and Management (OASAM).
OASAM also absorbed ETA’s contracting staff that previously supported Job Corps.
However, the contracting staff was subsequently reassigned to non-Job Corps duties
once they became a part of OASAM.

Since the transfer to OSEC, the Secretary of Labor annually submitted DOL budgets to
move the Job Corps program back to ETA. The Consolidated Appropriations Act of
2010 finally authorized the transfer of the Job Corps program and its administrative
funding from the Office of the Secretary back to ETA. The transfer back was explained
as “to better integrate the program with other employment and training programs
overseen by ETA.” Funding for the Job Corps program is now in a separate
appropriation account under ETA.

OASAM, through the DOL’s Procurement Executive, is responsible for the overall
implementation of DOL’s procurements and ensures that procurements are performed
in accordance with the appropriate laws and regulations. However, OASAM delegates
procurement authority through a decentralized procurement structure via several
operational acquisition and assistance offices. For Job Corps, the operational
acquisition authority is with ETA’s contracting officers and contracting specialists under
ETA’s Office of Contract Management. These contracting officers and contracting
specialists are authorized to perform contracting activities for Job Corps National and
Regional Offices.




                                         Job Corps National Contracting Needs Improvement
                                            21                Report No. 26-13-004-03-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






            Job Corps National Contracting Needs Improvement
               22                Report No. 26-13-004-03-370
                                     U. S. Department of Labor – Office of Inspector General


                                                                              Appendix B
Objective, Scope, Methodology, and Criteria

AUDIT OBJECTIVE

Our audit objective was to answer the following question:

   Were Job Corps’ national contracts awarded and costs claimed in accordance with
   FAR requirements?

SCOPE

The audit covered Job Corps national contracts (operational service support and
technical and training contracts) for 16 national contracts representing $466 million, or
92 percent of the total value of Job Corps’ national contracts awarded during the five
year contract award period from January 1, 2008, to December 31, 2012. We separately
audited claimed costs for the 16 national contracts by testing all claimed costs for 8 Job
Corps national training contracts totaling $335 million and by testing a portion of the
$131 million in claimed cost associated with the other 8 national contracts. For the other
8 national contracts, we performed a statistical sample of approximately $25 million in
claimed cost for the period October 1, 2010, through September 30, 2011.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

METHODOLOGY

To accomplish the audit objective, we reviewed ETA’s standard operating procedures
and obtained an understanding of FAR contracting requirements and DOL procurement
policies. We also conducted interviews with ETA, OASAM, and Job Corps management
and staff responsible for procurements and invoice payments and obtained
walkthroughs of the procurement and payment processes.

We reviewed 16 Job Corps national contracts, totaling approximately $466 million,
awarded and managed by ETA and OASAM for the five year contract award period from
January 1, 2008, to December 31, 2012; and claimed costs managed from
October 1, 2010, to September 30, 2011. We reviewed the award process and obtained
all contracts, invoices, and supporting documents pertaining to the award, maintenance,
and claimed costs for the 16 contracts. We tested the 16 contracts for completeness by
performing inquiries of ETA officials, inspecting the contract files, and vouching the
contracts to an Electronic Procurement System (EPS) list of all contracts. We performed
analysis and tested sole source and competitively awarded contracts, and modifications

                                        Job Corps National Contracting Needs Improvement
                                           23                Report No. 26-13-004-03-370
                                      U. S. Department of Labor – Office of Inspector General


specifically to ensure that the documentation required by FAR was present in files and
that contract files were managed in accordance to the FAR.

We tested each of the contracts and expenditures for compliance with the FAR
requirements, including awarding contracts based on evaluation, competition, adequate
justification, documentation, and cost or price analysis. We selected a stratified
statistical sample of 80 invoices, totaling $24,948,421; sampled 39 of 80 invoices
totaling approximately $12,694,187; and tested claimed costs for completeness by
verifying invoice dates that were paid during our audit period and by performing
inquiries of Job Corps’ management and staff.

For the awarded contracts, we obtained a list of invoices from ETA that were authorized
for payment by Job Corps, and then compared the list to the payment documentation
received for the invoices during our audit period.

A performance audit includes an understanding of internal controls considered
significant to the audit objective and testing compliance with significant laws,
regulations, and other requirements. To identify and assess internal controls relevant to
our audit objectives, we interviewed relevant OASAM, ETA, and Job Corps personnel,
and reviewed available policies and procedures. In planning and performing our audit,
we considered whether internal controls significant to the audit were properly designed
and placed in operation. In addition, we obtained an understanding of the internal
controls associated with the procurement and claimed costs, determined whether
internal controls had been placed in operation, assessed control risk, and performed
tests of internal controls in order to determine our auditing procedures for the purpose of
achieving our objectives. This included reviewing ETA, OASAM, and Job Corps policies
and procedures related to procurement. We confirmed our understanding of these
controls and procedures through interviews and documentation review and analysis.

We also evaluated internal controls used by ETA, OASAM, and Job Corps for
reasonable assurance that the awarding of contracts and payment of invoices were
done according to Federal requirements. Our consideration of internal controls for
awarding of contracts and payment of invoices would not necessarily disclose all
matters that might be reportable conditions. Because of inherent limitations in internal
controls, misstatements, losses, or noncompliance may nevertheless occur and not be
detected.

To achieve the assignment’s objective, we relied on the computer-processed data
contained in DOL’s New Core Financial Management System (the Department’s
accounting system), DOL’s Electronic Procurement System procurement system, and
Job Corps Financial Accounting System (Job Corps internal financial accounting
system). We assessed the reliability of the data by: (1) performing various testing of
required data elements and by utilizing data analysis spreadsheets, and (2) interviewing
ETA and the Office of Chief Financial Officer officials knowledgeable about ETA’s
financial data. We also performed tests of Job Corps manual processes and procedures



                                         Job Corps National Contracting Needs Improvement
                                            24                Report No. 26-13-004-03-370
                                     U. S. Department of Labor – Office of Inspector General


for receiving, recording, tracking, and paying invoices associated with Job Corps
national contracts.

CRITERIA

   •   FAR
   •   Prompt Payment Act
   •   Department of Labor Manual Series
   •   GAO’s Standards for Internal Control in the Federal Government




                                        Job Corps National Contracting Needs Improvement
                                           25                Report No. 26-13-004-03-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






            Job Corps National Contracting Needs Improvement
               26                Report No. 26-13-004-03-370
                                  U. S. Department of Labor – Office of Inspector General


                                                                           Appendix C
Acronyms and Abbreviations

COR           Contracting Officer’s Representative

DOL           Department of Labor

ETA           Employment and Training Administration

FAR           Federal Acquisition Regulation

GAO           Government Accountability Office

OASAM         Office of the Assistant Secretary for Administration and Management

OIG           Office of Inspector General

OSEC          Office of the Secretary

PRB           Procurement Review Board




                                        Job Corps National Contracting Needs Improvement
                                           27                Report No. 26-13-004-03-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






            Job Corps National Contracting Needs Improvement
               28                Report No. 26-13-004-03-370
                                                U. S. Department of Labor – Office of Inspector General


                                                                                                        Appendix D
Combined Response from ETA and OASAM to the Draft Report



    U.S. Department of Labor




         JUN 1 2 2013
       MEMORANDUM FOR ELLIOT P. LEWIS
                      Assistant Inspector General for Audit


       FROM:




       SUBJECT:                 Job Corps National Contracting Needs Improvement to
                                Ensure Best Value (Draft Audit Report 26-13-004-03-370)

       This responds to the Office of Inspector General (OIG) Draft Audit Report 26-13-004-03-370,
       "Job Corps National Contracting Needs Improvement to Ensure Best Value." As discussed more
       fully below, management accepts all four of the OIG's specific recommendations to further
       improve our procurement practices.

       We note at the outset, however, that we believe the ten sole source National Job Corps contracts,
       which were the subject of this audit, were appropriately awarded in a;;cordance with Federal
       Acquisition Regulation (FAR) and Department of Labor (DOL) requ:lrements.

       Although sole source contracts were appropriate in the Job Corps circumstances discussed in this
       audit, management acknowledges that competition for contractor services, where competition is
       possible, is desirable. for achieving the best value. The Department has demonstrated its
       longstanding commitment to competitive procurements and has consistently ranked among the
       top ten Federal agencies with regard to contract competition. For FY 2012, more than 80 percent
       of DOL contract dollars were awarded through competition. To date in FY 2013 the Department
       has competed more than 83 percent of its contract dollars.

       Background on Job Corps and National Training Contracts

       Job Corps, under the direction of the Assistant Secretary for Employment and Training, offers
       career development services to at-risk young women and men, ages 16 to 24, and career
       technical training in more than 100 occupational areas including green job training in advanced
       manufacturing, automotive, and construction careers at more than 125 campuses throughout the
       United States and Puerto Rico. Students also receive academic training, including basic reading
       and math, GED attainment, college preparatory courses, and Limited English Proficiency
       courses. Courses in independent living, employability skills, and social skills are offered in order
       to help students transition into the workplace.




                                                     Job Corps National Contracting Needs Improvement
                                                        29                Report No. 26-13-004-03-370
                                               U. S. Department of Labor – Office of Inspector General




Job Corps distinguishes itself from other training programs by providing students with residential
services as well as with hands-on training and experience that leads to an industry-recognized
credential. This approach is evidenced in Job Corps' work-based learning program, which
requires students to participate in real work environments before their training is completed. The
work-based learning program links classroom and career training to practical, on-the-job
activities. The training provided by the national contractors share the:se same features,
combining classroom and practical learning based on industry standards that enables students to
receive hands-on training.

As noted in Appendix A of the draft audit report, Job Corps administers several national support
contracts to include: national health and wellness consultants, the Job Corps National Call
Center, Job Corps nationwide outreach efforts, and nationwide curriculum development. Job
Corps' Regional Offices administer contracts and perform oversight activities, which include
oversight and ongoing monitoring of Outreach and Admissions and Career Transition Services
contracts.

Finding 1- Thirteen Job Corps National Contracts Awarded Without Adequate Sole
Source Justification or Key Contracting Documentation.

The draft audit report finds that 13 contracts were awarded without competition, proper
evaluation of competing contractors, or required contract documentation. As referenced in
Exhibit1 of the draft report, 11 of the contracts were awarded by the Office of Assistant
Secretary for Administration and Management (OASAM)--eight were Job Corps national
training contracts (2008 1), one was a career technical training strategies contract (2008), one was
a media outreach contract (2008), and one was a communications support contract (2009). The
remaining two contracts were awarded in 2012 by the Employment and Training Administration
(ETA)--{)ne for facilities support services and the other for data processing support services.
Management concurs that ten of these contracts were awarded on a sole source basis. As we
explain below, these sole source contracts were awarded in conformance with the requirements
of the FAR and Departmental policy and provide the needed services at a fair and reasonable
price.

Eight 2008 Job Corps National Training Contracts

The procurement processes that resulted in the eight 2008 national training contracts started with
the OASAM contracting officer and Job Corps working together to identify the requirements for
these contracts. Consistent with FAR Part 10, the OASAM contracting officer conducted market
research to assess the marketplace for firms capable of providing the~,e services. The OASAM
contracting officer posted a sources sought notice, under FAR Part 5, in Federal Business
Opportunities (FedBizOpps). 2 This notice was open for response from providers for 47 calendar
days (substantially longer than the FAR-specified 15 days). No companies responded to the


1
  The contracting officer awarded the eight national training contracts in December 2007, with an effective date of
January 2008. Hereinafter, these contracts will be referred to as the 2008 national training contracts.
2
  FedBizOpps is a web-based system for posting solicitations and other procurement-related documents to the
Internet and it has been designated by the Federal Acquisition Regulation as the mandatory "government wide point
of entry for the posting government business opportunities greater than $25,000".
                                                                                                                  2




                                                     Job Corps National Contracting Needs Improvement
                                                        30                Report No. 26-13-004-03-370
                                              U. S. Department of Labor – Office of Inspector General




notice. Had any companies responded, the contracting officer would have assessed their
capability to provide these services.

Job Corps included the results of this market research in its submission to the Department's
Procurement Review Board (PRB). 3 The PRB serves as an additional internal control, not
required by the FAR, that advises the Chief Acquisition Officer (CAO) on certain proposed
procurement actions, including sole source awards. In addition to the market research results,
Job Corps provided a summary of the unique qualifications of the respective incumbent national
training contractors. Those unique qualifications, gleaned from the contract files, can be
summarized as follows:

    •   The proposed contractors have a strong affiliation with their respective industry partners
        and, therefore, direct access to a large nation-wide membersh:[p related to trades and
        national and local apprenticeship programs, which is necessary for student success while
        in the program and after matriculation from the Job Corps training program;
    •   The proposed contractors' instructional capability and capacity, including a large cadre of
        sufficiently qualified and experienced instructors that have the ability to provide training
        specifically developed and tailored for the learning level of Job Corps students;
    •   The proposed contractors' credibility with the trades industry~ including industry's ability
        to recognize training by the contractors as credit toward meeting the requirements of
        becoming a journey-level worker;
    •   The proposed contractors' training curriculum is based on industry standards; and
    •   The proposed contractors' have a positive record of apprentic·eship and/or job placement.

Based on Job Corps' submission to the PRB in support of sole source: awards to these entities,
the PRB voted in favor of recommending that the CAO approve thest) actions. 4 The CAO did so
under the authority provided by the Competition in Contracting Act, and the implementing
regulations at FAR subpart 6.3.

In accordance with FAR Parts 15 and 16, prior to making the awards the contracting officer
conducted the appropriate negotiations with each contractor to ensure: prices were fair and
reasonable, and reviewed certified cost and price data. The prices were found to be fair and
reasonable using cost analysis conducted in accordance with FAR 16. 104(c). The cost proposals
were reviewed by the OASAM Office of Cost Determination to determine the appropriate
indirect cost rates and verify the appropriateness of the cost accounting system of each

3
  Pursuant to the Department of Labor's Manual Series (DLMS) 2-836, the PRB is an advisory board comprised of
designees from OASAM, the Office ofthe Solicitor (SOL), the Office ofthe Chief Financial Officer (OCFO), and
the Office of the Assistant Secretary for Policy. Among other things, the PRB is tasked with making
recommendations to the Chief Acquisition Officer (CAO) on all proposed sole source contracts to be awarded
having an estimated value over $150,000. DLMS 2-836 also states that any proposed action from any of the board
member agencies requires the recusal of that member from participating in deliberations on the proposed action.
Each designee advises the PRB on specific aspects of a proposed action. For example, the SOL designee advises the
PRB on legal sufficiency, while the OCFO designee advises on financial matters and internal controls. In its over
25-year history, no PRE-recommended CAO decision has been overturned by any tribunal.
4
  As outlined in DLMS 2, Chapter 800, approval of a PRB recommendation by the CAO does not constitute an
award; an acquisition may only be awarded by an acquisition or assistance official. The CAO's approval
"authorizes the initiation of a non-competitive acquisition," while "[d]isapproval by the CAO of a proposed
acquisition will mean that the acquisition instrument may be awarded only using full and open competition."
                                                                                                               3




                                                   Job Corps National Contracting Needs Improvement
                                                      31                Report No. 26-13-004-03-370
                                                U. S. Department of Labor – Office of Inspector General




offeror. The reasonableness of each cost element was reviewed in accordance with FAR 15.404-
1(c) to determine how closely it matched the data; for example, time<:ards to verify actual salary
rates and fringe benefits currently provided. Judgment values such a::; proposed labor cost
escalation were compared to published forecasts from the Bureau of Labor Statistics. The
amount of fee was reviewed in accordance with the Workforce Investment Act requirements for
a minimum one percent fee. The sum of reasonable prices for each element was the basis for
establishing at total fair and reasonable price.

Eight 2013 National Training Contracts

As previously noted, this audit was conducted on the eight 2008 national training contracts.
ETA/Job Corps recently completed the sole source award of the eighl: national training contracts
for continued service for a base year and four option years, with effeetive dates in June 2013.

ETA, through the ETA contracting officer and Job Corps, followed s:tmilar steps in conducting
this procurement action to the 2008 national training contracts. ETA identified the program
requirements for these procurements. The ETA contracting officer posted sources sought notices
on FedBizOpps for each contract, under FAR Part 5, similar to the action taken by the OASAM
contracting officer in 2008. The announcements were open for 15 calendar days in December
2011, consistent with FAR requirements. Only three of the eight postings received responses
from organizations other than the incumbent, and none were considered to have met the rating
criteria set by the contracting officer: 1) History of providing career technical training to
disadvantaged youth; 2) Level of familiarity with the Job Corps program; 3) Affiliation with
registered apprenticeship programs or employers in the industry on a national, regional, and local
level; 4) Ability to deliver existing training curricula and develop new curricula; and 5) Quality
of existing instructional staff. In order for an entity to be determined capable they must have
met each of the five criteria. 5

    •    One company responded to the announcement to provide training to carpenters but was
         determined not meet any of the five rating criteria.
    •    Three companies responded to the announcement to provide residential construction
         training. Two of the companies failed to meet any of the five 1;riteria. The other failed to
         meet two of the five criteria.
    •    One company responded to the announcement to provide training for heavy equipment
         and asphalt paving but failed to meet any of the five criteria.

In completing these awards, ETA/Job Corps sought and received recommendations in favor of
the sole source award of these contracts from the PRB and, based on the PRB 's recommendation,
approval from the CAO under FAR 6.302-1, the implementing regulation allowing for sole
source contracts when only one source is available to meet the requin'!ments. Finally,
appropriate negotiations with each contractor were conducted to ensure prices were fair and
reasonable and a review of certified cost and price data was conducted, consistent with the
process outlined above for the 2008 awards.

5
  The number of responses to a sources sought notice and the evaluation of the responses are generally viewed as
procurement sensitive or source selection information under the FAR. In the event of public release of this report,
this information should be redacted.
                                                                                                                      4




                                                      Job Corps National Contracting Needs Improvement
                                                         32                Report No. 26-13-004-03-370
                                         U. S. Department of Labor – Office of Inspector General




Two Additional Job Corps Sole Source Contracts

The draft audit report finds that two additional contracts (PB Dewberry and IMP AQ
International) should have been subjected to competition.

The sole source contract award to PB Dewberry was necessitated by several protests to the
Department's efforts to compete this requirement. To ensure continuity of services while the
protests were resolved, ETA/Job Corps submitted documentation to the PRB demonstrating why
a sole source award was appropriate in this case. The PRB recommended approval of this action,
and the CAO approved this sole source award under the authority in FAR Part 6.302-1.
Ultimately, the Department successfully resolved the last round of protests in connection with
this requirement and awarded a contract -which resulted from a competitive procurement
process- to a new contractor on September 28, 2012, with a base petiod of performance of
January 16, 2013 through January 15, 2014 (the period of performance was delayed due to
protest).

Due to procurement delays, the sole source contract to IMP AQ International was made to ensure
continuity of services while ETA competed and awarded a new contract. DOL followed the
PRB procedures discussed above, ultimately resulting in the CAO approving the sole source
award in accordance with FAR Part 6.302-1. ETA successfully competed the services and
awarded a new follow-on contract to IMPAQ International on June 28, 2012, with a base period
of performance of July 13, 2012 through July 12, 2014.

Three Remaining Job Corps Contracts

The draft audit report acknowledges that that the three remaining contracts - for media outreach,
communications support, and career technical training strategies - W(~re awarded competitively
but cited missing key file documentation necessary to determine if appropriate competitive
procedures were followed. Management's response follows:

McNeely, Piggott, & Fox Public Relations, LLC, blanket purchase agreement (BPA) for media
outreach- The draft audit report found that this contract lacked BPA documentation and that the
BPA competitive procedures were inadequate. It is unclear what information is considered
missing, and specifically what BPA procedures were inadequate. OASAM sent Request for
Quotes to qualified vendors and awarded the BPA based on an evaluation of the quotes received.
The required documentation is in the contract file.

Looking ahead, the Department anticipates a new competitive acquisition for media outreach
services in FY 2014. The current delivery order against the BPA will. expire in September 2013,
so the Department anticipates that we will continue to rely on the BPA, pending completion of
the new competitive procurement process.

McNeely, Piggott, & Fox Public Relations, LLC, contract for communications support- The
draft audit report finds that this contract lacked competitive range doc:umentation. Competitive
range documentation is not required when the contracting officer makes an award based on
initial offers. The source selection documentation contained in the contract file indicates that the
contracting officer awarded the contract based on initial offers. The draft audit report also noted
                                                                                                   5




                                              Job Corps National Contracting Needs Improvement
                                                 33                Report No. 26-13-004-03-370
                                         U. S. Department of Labor – Office of Inspector General




a lack of comparative assessment; however, the contract specialist's award recommendation to
the contracting officer included a comparative assessment of the 13 cfferors that submitted
proposals. Lastly, the draft audit report found that there was no support for bid cost selected, and
that the file lacked EPLS documentation. This was a negotiated procurement awarded in
accordance with FAR Part 15, Contracting by Negotiation. In negotiated procurements,
contractors submit proposals and not bids. The support for the award was included in the award
recommendation prepared by the contract specialist, and in the contracting officer's award
decision memorandum. EPLS documentation is only required for the successful offeror. All of
the required documents are located in the pre-award file.

The Ashlin Management Group, Inc. contract for career technical tra:[ning strategies - The draft
audit report finds the contract file was missing competitive range documentation, solicitation
documents and EPLS documentation. This documentation is available in the pre-award file for
this contract.

Finding 2- Claimed Costs for Job Corps National Contracts Were Not Always Reviewed
and Supported.

As outlined in responses to Recommendations 2 and 3 below, ETA management is taking steps
to change the payment system from a drawdown (prior to incurred cost) to an invoicing
procedure after services rendered and will require contractors to invoice for services rendered in
accordance with the FAR.

Recommendations

Management's responses to the draft audit report's recommendations follow:

OIG Recommendation 1: Develop and implement procedures and provide training as needed
to ensure contracting officers, contracting specialist, and contracting officers' representative are
up-to-date on applicable FAR and DOL requirements before awarding and managing sole source
or competitive contracts.

Response: Management accepts this recommendation. By way of background, as management
has reported in response to other recent OIG audits, in January 2012 the Department began
sweeping procurement reforms and training to address weaknesses in the procurement process.
More specifically:

   •   During Q4 FY 2011 and Q1 FY 2012, OASAM, in consultation with SOL, provided
       procurement integrity and ethics training to more than 1,200 DOL executives, managers
       and acquisition personnel in the National Office and regions;
   •   Provided training on unauthorized commitments/ratifications to the DOL acquisition
       workforce;
   •   Conducted strategic contract administration reviews to establish how well contracts are
       administered by the contracting officer representatives (COR); and
   •   Provided guidance on post-award contract oversight and surveillance requiring a COR for
       all contracts over $150,000.

                                                                                                     6




                                              Job Corps National Contracting Needs Improvement
                                                 34                Report No. 26-13-004-03-370
                                       U. S. Department of Labor – Office of Inspector General




Where applicable, management has also incorporated the above procurement reforms into
Department of Labor Manual Series (DLMS) 2-888 Federal Acquisition Certification in
Contracting (August, 2012) and DLMS 2-889 Federal Acquisition Certification in Contracting
Officer Representatives (updated August, 2012). During regular Pro,~urement Council meetings
with leadership from the Department's acquisition community, the OASAM Office of
Acquisition Management Services emphasizes the need to minimize the use of sole source
contracting and competitively procure goods and services whenever practicable.

In addition, all ETA staff currently awarding and administering the contracts discussed in this
draft audit report have received training on contract award and administration. ETA has
established several procurement "standard operating procedures" to provide readily available
reference information for staff. This information is located on a shared network drive. CORs
have received extensive contract administration training necessary to ensure contractors are in
compliance with all procurement laws and the awarded contract. Sp~:cifically, Job Corps CORs
received contract administration training June 21 and 26, July 11 and 24, and August 16, 2012.
They also received COR responsibility training May 15, 2013, and are scheduled to receive
follow-up training on July 17, 2013.

OIG Recommendation 2: Review future Job Corps' National contracts for FAR and DOL
compliance prior to approving any procurement actions.

Response: Management accepts this recommendation. For the reasons discussed above,
management believes that the Job Corps national training contracts were awarded in accordance
with the FAR and DOL policy, including the eight contracts awarded for these training services.
Also, in the contract negotiations for the 2013 awards, the payment system was revised from a
drawdown (prior to incurred cost) to an invoicing procedure after services are rendered. In
addition, the contractors' proposals were reviewed by the OASAM Office of Cost Determination
for reasonableness, a process that is undertaken each time certified cost and pricing data is
required.

OIG Recommendation 3: Develop standard operating procedures using the Standards for
Internal Control in the Federal Government to develop and implement the missing procedures for
requesting and reviewing invoices from Job Corps national contractors.

Response: Management accepts this recommendation. ETA self-identified the inadequacy of
the current system in 2012 and took action to correct the invoicing and payment procedures in
the new national training contracts. ETA will require the contractors to invoice for services
rendered in accordance with the FAR. In addition, the COR has been trained to require
supporting documentation for costs incurred. The contracting officer will inspect the CORs files
semi-annually.

OIG Recommendation 4: Recover questioned costs as appropriate on the amount of cost
claimed that lacked supporting documentation for the other eight Job Corps national training
contracts.

Response: Management accepts this recommendation. ETA agrees that contractors have not
always provided proper evidence that expenses invoiced and paid were actually incurred. ETA
                                                                                                  7




                                            Job Corps National Contracting Needs Improvement
                                               35                Report No. 26-13-004-03-370
                                      U. S. Department of Labor – Office of Inspector General




will have the COR review supporting documentation and recover costs as appropriate. This
action will be completed by the beginning of Q4 FY13.

cc:    Grace Kilbane, ETA
       Linda Heartley, ETA
       William Thompson, ETA
       Lisa Lahrman, ETA
       Kevin Brumback, ETA
       Linda Marshall, ETA
       Jennifer Richards, ETA
       Ed Hugler, OASAM
       AI Stewart, OASAM
       Sandra Foster, OASAM




                                                                                           8




                                          Job Corps National Contracting Needs Improvement
                                             36                Report No. 26-13-004-03-370
                                    U. S. Department of Labor – Office of Inspector General


                                                                             Appendix E
Acknowledgements

Key contributors to this report were Ray Armada (Audit Director), Alvin Edwards (Audit
Manager), Renee Harrison-Womack (Team Leader), Travis Williams, Nicholas Cumby,
and Daniel Rhodes (Audit Team Members), and Ajit Buttar (Statistician).




                                       Job Corps National Contracting Needs Improvement
                                          37                Report No. 26-13-004-03-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






            Job Corps National Contracting Needs Improvement
               38                Report No. 26-13-004-03-370
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:		      http://www.oig.dol.gov/hotlineform.htm
Email:		       hotline@oig.dol.gov

Telephone:		   1-800-347-3756
               202-693-6999

Fax:           202-693-7020

Address:       Office of Inspector General
               U.S. Department of Labor
               200 Constitution Avenue, N.W.
               Room S-5506
               Washington, D.C. 20210
